U.S. Department of                                                                     Office of Inspector General
Transportation                                                                         Washington, DC 20590
Office of the Secretary
of Transportation


May 22, 2013

The Honorable Barbara Boxer                               The Honorable Bill Shuster
Chairman, Committee on                                    Chairman, Committee on
 Environment and Public Works                              Transportation and Infrastructure
United States Senate                                      United States House of Representatives
Washington, DC 20510                                      Washington, DC 20515

The Honorable David Vitter                                The Honorable Nick J. Rahall, II
Ranking Member, Committee on                              Ranking Member, Committee on
 Environment and Public Works                              Transportation and Infrastructure
United States Senate                                      United States House of Representatives
Washington, DC 20510                                      Washington, DC 20515


Dear Chairmen and Ranking Members:

We are writing to provide you with an early assessment of the Department’s plans to
carry out the provisions within the Moving Ahead for Progress in the 21st Century
Act (MAP-21), requiring the Acceleration of Project Delivery (Subtitle C). 1 MAP-21
is the first long-term surface transportation authorization since 2005, providing
$105 billion for fiscal years 2013 and 2014. The Act’s Subtitle C is designed to
increase innovation in surface transportation project delivery and efficiency of project
planning, design, construction, and financing. The Federal Highway Administration
(FHWA), the Federal Transit Administration (FTA), and the Office of the Secretary
of Transportation (OST) are working together to implement numerous MAP-21
provisions, including Subtitle C. MAP-21 requires our office to assess the
Department’s steps taken to administer Subtitle C and report periodically to your
Committees. This is the first review in a series of audits using a three-phase approach
to assess the Department’s progress in implementing MAP-21’s project delivery
reforms. 2




1
 Pub. L. No. 112-141 (2012), Division A, Title I, Subtitle C.
2
 OIG Audit Announcement: “Audit Initiated of DOT’s Implementation of MAP-21 Acceleration of Project Delivery
Provisions,” November 28, 2012.


CC-2013-007
                                                                                                                              2


We conducted our initial review to proactively address our mandate and assess the
Department’s plan and progress as of March 27, 2013. 3 Accordingly, we are
providing you with our results, which we discussed with your respective staffs on
April 22, and 25, 2013. The scope of our review included (1) reviewing the
Department’s plans to carry out Subtitle C provisions, (2) assessing the status of those
planned actions, and (3) identifying challenges that could delay the Department’s
implementation efforts.

In summary, the Department developed a plan with 42 actions to meet Subtitle C
requirements. These actions mostly involve environmental issues that occur during
the planning and design phase of highway and transit projects. The Department
completed five actions, and most of the remaining actions are in progress. For
example, in the first month that the law went into effect, the Department issued
guidance in the form of questions and answers on a wide range of topics, including
innovative project delivery, and a proposed rulemaking on using categorical
exclusions (CE) 4 to expedite projects after disasters or emergencies (the rule was
finalized in February 2013). However, its plan does not assign estimated completion
dates for all the planned actions without milestones specified by statute. 5 These
include final rulemakings, new guidance to States managing Federal projects, a
congressionally mandated report, and other program initiatives such as identifying
and disseminating best practices. Without estimated completion dates, the Department
lacks a sufficient management tool to track timely completion of these efforts, and it
will be difficult for Congress, States, and other stakeholders of Federal projects to
gauge the Department’s progress. Finally, while the Department met certain MAP-21
rulemaking milestones, it faces challenges to complete all required rulemakings
within the statutorily set dates. For example, many of these rulemakings require
coordination with other agencies, which typically extends the timeframe, and the
Department is already experiencing delays with some mandated rules.

We conducted this review from December 2012 to May 2013 in accordance with
generally accepted government audit standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. Attachment 1 shows the 42 actions planned
by OST, FHWA, and FTA to implement Subtitle C as well as the details of our scope
and methodology.



3
  This date represents the last date for which we verified status and gathered data for our audit.
4
  A categorical exclusion is a category of actions that do not individually or cumulatively have a significant effect on the
human environment. In these cases, an environmental impact statement or an environmental assessment is not required.
5
  While Subtitle C identifies specific dates for many NPRMs, final rules, and reports, it does not specify dates related to non-
legislative requirements, such as Department guidance.


CC-2013-007
                                                                                                                            3


BACKGROUND
MAP-21 Subtitle C, which has a legislative life of 2 years, contains key provisions 6 to
accelerate the delivery time of surface transportation projects and reduce costs.
According to FHWA, complex federally funded highway projects can take
approximately 13 years to complete (from planning to construction). Subtitle C directs
the Department to identify and promote reforms that will reduce the time and funding
required to plan, design, and construct surface transportation projects. Most of the
project delivery reforms relate to environmental issues during the planning and design
phase of highway and transit projects. For example, Subtitle C expedites the National
Environmental Policy Act (NEPA) review process by broadening States’ ability to
acquire or preserve right of way parcels prior to a review’s completion. MAP-21 also
expands the use of CEs for other types of projects, such as those that are multi-modal,
pertain to roads damaged in a declared disaster, are within an existing operational
right-of-way, or receive limited Federal assistance.

The process by which the Department’s agencies develop and issue regulations is
spelled out in the Administrative Procedure Act (APA). APA generally requires
agencies to publish a notice of proposed rulemaking (NPRM) in the Federal Register,
allow a comment period, issue a final rule with a statement of its basis and purpose,
and publish a final rule at least 30 days before it becomes effective. APA allows
agencies to issue final rules without the use of an NPRM in certain cases, including
when the agency determines for “good cause” that notice and comment procedures are
“impracticable, unnecessary, or contrary to the public interest.” Under Executive
Order 12866 (reaffirmed by Executive Order 13563), the Office of Management and
Budget (OMB) reviews “significant” 7 proposed and final rules from agencies, other
than independent regulatory agencies, before they are published in the Federal
Register. OMB ultimately determines whether a rule is significant—an action that can
extend the time to complete a rulemaking.

THE DEPARTMENT COMPLETED FIVE OF THE ACTIONS DEFINED
IN ITS PLAN, AND MOST OF THE REMAINING ACTIONS ARE IN
PROGRESS
The Department completed 5 of 42 actions (see attachment 1) from October 1, 2012,
(when MAP-21 went into effect) through March 27, 2013, including rulemakings,
guidance, and other initiatives to implement MAP-21 Subtitle C. Most of the
remaining actions are in progress. In addition to its planned actions, the Department
6
  These provisions include advancing the use of best practices, expanding early acquisition of property prior to completion,
using the construction manager/general contractor method of contracting, and establishing a relocation streamlining
demonstration program.
7
  Significant rulemakings are those that have an annual economic effect of $100 million or more; could adversely affect the
environment, public health or safety, actions of another agency, or a government program or policy; or create a legal issue or
other material impact.


CC-2013-007
                                                                                                                         4


has completed question and answer guidance for States and others managing Federal
projects on 19 sections related to Subtitle C. Many of these sections will also include
additional Department-initiated rulemakings and new or modified departmental
guidance. We assessed the status of DOT’s completed and planned actions as follows:

  • The five completed actions include publishing an NPRM and final rule for Section
    1315(a) on the use of CEs to expedite projects after a disaster or other emergency,
    issuing question and answer guidance on innovations to improve project delivery
    identified in Section 1304, surveying and reporting on the use of CEs for Section
    1318, completing interim guidance on accelerated decision making for
    environmental reviews for Section 1319, and publishing an initial report to
    Congress on the status of environmental studies as required in Section 1306.

  • According to the Department, 34 of the 42 planned actions are underway, 8 and it
    has made substantial progress on many of them. For example, for Section 1305,
    the Department drafted guidance that will designate a lead agency for multimodal
    projects. This action is ongoing because the guidance is under review by the
    Department’s program offices. In addition, for Sections 1316 and 1317, the
    Department issued an NPRM within the statutory deadline but has not completed
    the final rule, which relates to the use of CEs for projects within the right-of-way
    and projects with limited Federal assistance. Lastly, the Section 1318 rulemaking
    on the use of additional types of CEs is in progress but significantly behind
    schedule. In this instance, Department officials explained that an NPRM for
    Section 1318 cannot be completed until an analysis is performed on the survey
    results, which is still being conducted.

  • Department officials told us that they did not begin work on 3 of the 42 planned
    actions. These actions include establishing a best practices clearing house related
    to accelerated project delivery, developing guidance on integrating planning and
    environmental reviews, and reporting on the types of and justification for
    additional CEs. The Department stated that it has not begun these three actions
    because other actions either have a higher priority or need to be completed before
    it can start these actions.

THE DEPARTMENT DEVELOPED MAP-21 PLANS BUT DID NOT
ASSIGN COMPLETION DATES FOR SEVERAL ACTIONS
The Department developed plans (with 42 separate actions) to implement all required
sections within MAP-21 Subtitle C (Sections 1301-1323). 9 These plans identify how
8
  The reported status of the 34 actions shown as “in progress” is based on information provided by the Department. We did
not perform audit procedures to confirm the actual status of the planned actions since this was beyond the scope of our
initial review.
9
  Section 1322 requires actions from GAO, not the Department, so we have not included this Section as an action required in
our summary of Department’s action plans.


CC-2013-007
                                                                                      5


the Department will complete rulemakings, issue reports, or take other actions related
to the acceleration of project delivery. However, as of March 27, 2013, the
Department has not assigned estimated completion dates to a number of planned
actions. These include final rulemakings, new guidance, and other program initiatives.
Without estimated completion dates, the Department lacks a sufficient management
tool to track timely completion of these efforts, and it will be difficult for Congress,
States, and other stakeholders of Federal projects to gauge the Department’s progress.
OST, FHWA, and FTA are coordinating all of the Department’s plans, which fall
within the following five general categories:

Congressionally Required Rulemakings: The Department plans to issue eight rules
to meet congressional requirements. The eight rules will, in general, streamline the
environmental review process used on Federal highway and transit projects. Of the
eight, three have a statutory deadline to issue an NPRM, and the remaining five
NPRMs have deadlines set by the Department. For the final rulemaking phase, one
has a statutory deadline to issue a final rule, four have deadlines set by the
Department, and the three remaining do not have final deadlines. The Department
prioritized congressionally required rules in order to meet the statutory deadlines. For
example, the Department issued an NPRM and a final rule for Section 1315, which
qualified emergency repair projects to be eligible for categorical exclusions.

Department-Initiated Rulemakings: The Department plans to develop three
additional rules to implement certain sections of Subtitle C, including early
acquisition of right-of-way, contract letting, and environmental planning. For
example, the Department will issue a new rule to implement Section 1303, which will
permit a newer type of contracting method called construction manager/general
contractor. The Department has estimated NPRM completion dates for all three
planned rules but did not set estimated dates for the publication of these final rules.

Congressionally Mandated Reports: The Department plans to issue five categories
of reports to inform Congress or other interested parties of the status of environmental
actions taken. For example, Section 1306 directs the Department to issue a report to
Congress at least every 120 days on the NEPA status of projects. Four of the five
report types have congressionally mandated due dates. However, the Department does
not have a planned completion date for the remaining report, which will convey the
results of a Departmental review, required by Section 1321, to assess and develop
consistent environmental permit and procurement procedures.

Guidance: The Department identified 16 planned actions to issue new or modify
existing guidance to assist States and others managing Federal projects. As of
March 27, 2013, the Department has issued guidance for 2 of these 16 actions.
However, the Department does not have estimated completion dates for the remaining
14 actions.



CC-2013-007
                                                                                                                     6


Other Initiatives: The Department has three other initiatives included in its plan—
two to address Section 1301 and one covering Section 1318. For Section 1301, the
Department must advance the use of best practices, which would reduce delivery time
and project costs. Additionally, the Department must establish a relocation
demonstration program. The Department has not formalized a schedule for the
Section 1301 initiatives. The Department has completed the Section 1318 initiative by
surveying and reporting on the Department’s use of CEs since 2005.

Department officials stated that their first priority is to publish statutorily required
rules, focusing on those with congressionally mandated deadlines, and to prepare
required reports with specified deadlines. The Department then plans to focus on self-
initiated rulemakings for sections that either add new provisions or alter existing
Federal regulations. After that, the Department will develop and publish guidance. At
the same time, it will work on the other initiatives identified in its plans. In our view,
the Department’s decision to focus first on rulemakings and required reports is
reasonable.

According to the Department, it did not set some milestone dates for final
rulemakings due to a number of factors. These include legal requirements in the
rulemaking process, the inability to predict the time needed to complete the various
rulemaking stages, and OMB’s designation of a rule as “significant.” 10 Department
officials also stated that given the high priority placed on rulemakings, they had not
set milestones for other planned actions at this time.

In our view, establishing milestone dates whenever feasible provides useful
information to key stakeholders and is an important management tool for the
Department. We also noted that, contrary to the Department’s assertions, the legal
requirements of the rulemaking process do not preclude estimation of completion
dates. Establishing such dates for final rules and for guidance and reporting
requirements is important to help the Department better manage the rulemaking and
guidance process and allow its stakeholders to effectively plan to implement the new
rulemakings and guidance. For example, if a State can better gauge when FHWA
plans to complete a certain action, it can more readily incorporate a new legislative
provision in its project plans and specifications.

THE DEPARTMENT WILL BE CHALLENGED TO COMPLETE
REQUIRED RULEMAKINGS BY THE STATUTORILY SET DATES
The Department met certain MAP-21 rulemaking milestones and conducted
considerable outreach in many forums. 11 However, it will be challenged to complete

10
   OMB may define a rule as “significant,” which, according to the Department, would add 3 to 6 months of review time.
11
   The Department advised us that FHWA and FTA conducted about 50 webinars, Q&As, and other presentations to inform
its stakeholders on MAP-21 provisions.


CC-2013-007
                                                                                                               7


the remaining required rulemakings by the statutorily set dates. 12 Our review shows
that the Department is already experiencing delays with implementing some mandated
rules and has taken extended periods of time to issue prior rulemakings. Therefore,
States and others managing Federal projects may be unable to fully achieve the
benefits envisioned for Subtitle C in a timely manner. This is due, in part, to the fact
that it can take considerable time to complete parts of the rulemaking process and
coordinate on steps that involve other Federal agencies. For example, the Subtitle C
environmental rulemakings require compliance with NEPA provisions, which include
additional external coordination. One key external stakeholder is the Council on
Environmental Quality (CEQ), which promulgates regulations implementing NEPA
that are broadly applicable to all Federal agencies. 13 In addition, highway and transit
industry associations and State officials stated that earlier, interactive communication
with them may allow the Department to decrease the number of formal comments,
thereby reducing the time to complete rulemakings.

Timeframes for Completing Prior Department Rulemakings Were Longer Than
3 Years on Average: Given the time periods involved in the Department’s prior
rulemakings, it may be unrealistic to assume that the Department can complete the
remaining required Subtitle C rulemaking milestones established within the 2-year
legislative life of MAP-21. A 2009 Government Accountability Office (GAO) case-
study reviewed 16 Federal rulemakings at various agencies and found that they took
approximately 4 years on average to complete, with the 4 rules completed by the
Department averaging just over 3 years from initiation to final publication. 14 In
addition, for illustrative purposes, we reviewed three other rules issued by FHWA and
FTA, under the previous surface transportation authorization, which had similar
results. These three rules took an average of just over 5 years from initiation to final
publication.

DOT Is Already Experiencing Delays in Preparing Subtitle C Rules: We
identified a number of delays that the Department is already encountering with
issuance of some Subtitle C rules. For example:

     • Section 1313, Surface Transportation Project Delivery Program: The
       Department plans to publish an NPRM for Section 1313 by May 24, 2013. This
       leaves approximately 30 days to issue the final rule by the legislatively set date of
       June 28, 2013. This will be a challenge for the Department, which stated that it
       may expand the surface transportation project delivery program to include multi-
       modal projects. If the Department expands the program, then it could become a

12
   The completion dates specified in the legislation are within the 2 year legislative life of MAP-21.
13
   CEQ requires each Federal agency to develop NEPA procedures specific to actions undertaken by that agency.
14
   GAO Report, “Federal Rulemaking: Improvements Needed to Monitoring and Evaluation of Rules Development as Well
  as to the Transparency of OMB Regulatory Reviews” GAO-09-205, April 20, 2009. The case study included the
  Department of Transportation and other agencies such as the Environmental Protection Agency, Food and Drug
  Administration, and Securities and Exchange Commission.


CC-2013-007
                                                                                                                    8


      joint rulemaking that would require input from agencies, such as the Federal
      Aviation Administration, the United States Maritime Administration, and the
      National Highway Transportation Safety Administration in addition to the other
      modes that are already involved—FHWA, FTA, and the Federal Railroad
      Administration. In addition, this section may be designated as “significant,” which
      would require additional OMB reviews. This could cause the Department’s
      publication of a final rule to be delayed until after the congressionally mandated
      deadline.

     • Section 1318, Additional CEs Suggested by Stakeholders: The Department
       already missed the congressionally mandated requirement to issue an NPRM by
       January 2013 for Section 1318. Department officials explained that there were
       many challenges to issuing this NPRM, including the requirement to complete the
       survey and publish a report after soliciting ideas for new CEs from stakeholders.
       These actions must be completed before it can issue a rule to further expand the
       types of CEs that can be used on Federal projects. In addition, this section may be
       designated as significant by OMB, which would require additional reviews. This
       action would further impact the timeframe for both the NPRM and the final rule.

Transportation Industry Stakeholders Believe That Interactive Dialogue With
the Department May Reduce Some Time Involved in Rulemakings: The
Department stated that it made considerable outreach efforts related to MAP-21
implementation. However, highway and transit industry associations 15 and State
officials told us that any outreach efforts tended to be Web-based, public forums that
did not allow for sufficient informal, peer-to-peer dialogue prior to the NPRM. They
indicated that—similar to prior transportation authorizations—early, interactive
dialogue with the Department might reduce the time to respond to formal comments.
The State officials also noted a lack of notification thus far from the Department
concerning upcoming NPRMs as well as guidance and other relevant documents on
FHWA’s MAP-21 Web site. Department officials noted that additional
communication with stakeholders on the planned changes is generally prohibited and
that more communication on environmental requirements would not have provided
new information since these provisions have been in development over the last several
years. They also noted that there is no evidence that early involvement with
stakeholders shortens the rulemaking process. We found that the Department is not
prohibited from engaging in early, interactive dialogue, and transportation industry
stakeholders advised that interactive dialogue related to accelerated project delivery
prior to the NPRM would be beneficial.




15
  The highway and transit organizations we spoke with are the American Association of State Highway and Transportation
Officials (AASHTO) and the American Public Transportation Association (APTA).


CC-2013-007
                                                                                   9


CONCLUSION
Approximately 9 months after Congress passed and the President signed MAP-21, the
Department has taken action on many fronts to implement the legislation and has
plans to complete 42 actions related to the acceleration of project delivery. While
most of the Department’s remaining Subtitle C actions are in progress, a lack of
completion dates for some actions combined with delays in some rulemaking actions
could impede the Department’s ability to complete Subtitle C provisions in a timely
manner. Sustained management attention will be critical to ensure the timely
completion of rulemakings, guidance, other program initiatives, and reports to
Congress. Timely completion of planned actions would help States and others
managing Federal projects to fully realize the benefits of MAP-21’s innovation and
streamlining provisions.

We provided the Department with a summary of our audit results and the attached
matrix showing the Department’s planned actions to implement MAP-21 Subtitle C.
The Department responded to our initial audit and provided us with technical
comments, which we incorporated as appropriate. The Department also emphasized
its strong commitment to addressing the provisions of MAP-21 in a timely manner.
We are planning additional audits on Subtitle C implementation, consistent with the
requirements defined in the statute. If you have any questions regarding this review,
please contact me at (202) 366-5630 or Nathan Richmond, Director and Counsel for
Congressional and External Affairs, at (202) 493-0422.

Sincerely,



Joseph W. Comé
Assistant Inspector General for Highway and Transit Audits

Attachments (2)

cc: DOT Liaison (M-1)
    FHWA Liaison (HAIM-13)
    FTA Liaison (TBP-30)




CC-2013-007
                                                                                                                            Attachment 1
                                                                                                                              Page 1 of 9

The Department’s Planned Actions To Implement MAP-21 Subtitle C as of March 27, 2013

                                                                                Anticipated
                                                                                Completion
                             Other      Type of        Deliverable              Date (Bold =
                             Modes      Deliverable/   According to the         Statutory
 Section Title      Lead     Involved   Action*        Department               Deadline)      Status According to the Department
 1301:              1-OST    FHWA,      Initiative:    Identify and advance     None at this   Not started. FHWA's Every Day Counts 2
 Declaration of              FTA        Best           the use of best          time           creates inventory of best practices. OST may
 Policy and                             Practices      practices.                              establish a "dashboard" site for posting best
 Project Delivery                                                                              practices. FTA has not taken any action to
 Initiative                                                                                    implement this section.

                    2-FHWA              Guidance       Guidance on              None at this   In progress. Initiating drafting of
                                                       Relocation               time           demonstration project in FHWA.
                                                       Streamlining
                                                       Demonstration Project
                                                       to address 1301(b)(4).
                    3-FHWA              Initiative:    Solicitation /           None at this   In progress.
                                        MOAs           Memorandums of           time
                                                       Agreement (MOAs) for
                                                       Relocation
                                                       Streamlining
                                                       Demonstration Project
                                                       to address 1301(b)(4).
 1302: Advance      4-FHWA              Guidance       Guidance on advance      None at this   In progress. Draft under coordination in
 Acquisition of                                        acquisition of real      time           FHWA.
 Real Property                                         property interests.
 Interests

                    5-FHWA              Rulemaking     Regulation on            NPRM 10/13     In progress. Early draft in coordination in
                                                       advance acquisition of   FR None at     FHWA.
                                                       ROW.                     this time




CC-2013-007
                                                                                                                         Attachment 1
                                                                                                                           Page 2 of 9


                                                                                Anticipated
                                                                                Completion
                              Other      Type of        Deliverable             Date (Bold =
                              Modes      Deliverable/   According to the        Statutory
 Section Title      Lead      Involved   Action*        Department              Deadline)      Status According to the Department
 1303: Letting of   6-FHWA               Rulemaking     Regulation on           NPRM 8/13      In progress. Draft NPRM and rulemaking
 Contracts -                                            Construction Manager    FR None at     schedule under development.
 Construction                                           / General Contractor    this time
 Manager /                                              contracting.
 General
 Contractor
 1304: Innovative   7-FHWA               Guidance       Guidance on             10/1/2012      Complete. Guidance issued on 10/1/12 as a
 Project Delivery                                       increased federal                      Q&A document.
 Methods                                                share for innovation.

 1305: Efficient    8-FHWA    FTA,       Required       Rulemaking to allow     NPRM 6/14      In progress. A future decision is pending to
 Environmental                OST        Rulemaking     for the use of          FR None at     determine whether Section 1305 rulemaking
 Reviews for                                            programmatic            this time      will be initiated as separate rule, or
 Project                                                approaches to                          incorporated into the "clean-up" rulemaking in
 Decisionmaking                                         conduct environmental                  connection with other MAP-21 provisions.
                                                        reviews.

                    9-FHWA    FTA        Guidance       Guidance on             None at this   In progress. Guidance being developed to
                                                        designation of lead     time           address multiple changes to 23 U.S.C. 139,
                                                        agency for multimodal                  including this section. Guidance drafted and
                                                        projects to address                    in review by program offices.
                                                        1305(a).
                    10-FHWA   FTA        Guidance       Guidance on efficient   None at this   In progress. Guidance on lead agency
                                                        environmental reviews   time           designation is expected as part of DOT NEPA
                                                        / federal lead agency                  Order that is in development. Guidance
                                                        to address 1305(b).                    drafted and in review by program offices.


                    11-FHWA   FTA        Guidance       Guidance on efficient   None at this   In progress. Guidance drafted and in review
                                                        environmental reviews   time           by program offices.
                                                        to address
                                                        1305(c),(d), and (e).



CC-2013-007
                                                                                                                               Attachment 1
                                                                                                                                 Page 3 of 9


                                                                                     Anticipated
                                                                                     Completion
                               Other      Type of         Deliverable                Date (Bold =
                               Modes      Deliverable/    According to the           Statutory
 Section Title      Lead       Involved   Action*         Department                 Deadline)       Status According to the Department
 1306:              12-FHWA,              Congressional   Report to Congress at      Every 120       Complete. Initial report issued on March 14,
 Accelerated        OST                   Report          least every 120 days       days. Initial   2013.
 Decisionmaking                                           on NEPA status and         report due:
                                                          projects of (1) projects   2/1/13. Next
                                                          requiring a financial      due: 8/1/13.
                                                          plan and (2) sampling
                                                          of at least 5% of
                                                          projects requiring an
                                                          EIS or EA in each
                                                          State.
                    13-FHWA,   FTA        Guidance        Guidance on dispute        None at this    In progress. Guidance drafted and in review
                    OST                                   resolution referrals       time            by program offices. Coordination with affected
                                                          and time limits.                           Federal agencies is underway. Part of Section
                                                                                                     1305 guidance effort.
                    14-FHWA,   FTA        Potential       Rulemaking on              NPRM 6/14       In progress. This is a potential rulemaking
                    OST                   Rulemaking      dispute resolution         FR None at      and may be addressed as part of the "clean-
                                                          referrals and time         this time       up" rulemaking as referenced in Section 1305
                                                          limits.                                    rulemaking effort.
 1307:              15-FHWA    FTA        Guidance        Guidance on MOA            None at this    In progress. Guidance issued 9/25/12 as
 Assistance To                                            with Federal and State     time            Q&A document. Determination on whether
 Affected Federal                                         agency that                                further guidance needed not yet made. Part of
 And State                                                establishes the                            Section 1305 guidance effort.
 Agencies                                                 projects and priorities
                                                          to be addressed by
                                                          the use of the funds.




CC-2013-007
                                                                                                                              Attachment 1
                                                                                                                                Page 4 of 9


                                                                                   Anticipated
                                                                                   Completion
                             Other      Type of        Deliverable                 Date (Bold =
                             Modes      Deliverable/   According to the            Statutory
 Section Title     Lead      Involved   Action*        Department                  Deadline)      Status According to the Department
 1308:             16-FHWA   FTA        Rulemaking     Rulemaking on               NPRM 6/14      In progress. This is part of a 23 CFR 771
 Limitations on                                        revising the deadline       FR None at     "clean-up" rulemaking as referenced in
 Claims                                                for filing a claim for      this time      Section 1305 rulemaking effort.
                                                       judicial review to 150
                                                       days from 180 days.
                   17-FHWA   FTA        Guidance       Guidance on revising        None at this   In progress. This section will be included in
                                                       the deadline for filing a   time           the Section 1305 guidance effort.
                                                       claim for judicial
                                                       review to 150 days
                                                       rather than 180 days.
 1309:             18-FHWA   FTA        Potential      Rulemaking on               NPRM 6/14      In progress. This is a potential rulemaking at
 Accelerating                           Rulemaking     enhanced technical          FR None at     this time, and it may be addressed as part of
 Completion of                                         assistance for              this time      the "clean-up" rulemaking as referenced in
 Complex                                               complex projects                           the Section 1305 rulemaking effort.
 Projects Within                                       within 4 years.
 4 Years           19-FHWA   FTA        Guidance       Guidance on                 None at this   In progress. Part of Section 1305 guidance
                                                       enhanced technical          time           effort.
                                                       assistance for
                                                       complex projects
                                                       within 4 years.
 1310:             20-FHWA   FTA        Potential      Guidance on                 None at this   Not started. Potential for further guidance.
 Integration of                         Guidance       integration of planning     time
 Planning and                                          and environmental
 Environmental                                         review.
 Review
                   21-FHWA   FTA        Rulemaking     Rulemaking on               NPRM           In progress. Coordinating timing with
                                                       integration of planning     11/20/13       performance measure rulemaking. This
                                                       and environmental           FR None at     schedule may change as a result of further
                                                       review.                     this time      discussion within the Department.




CC-2013-007
                                                                                                                             Attachment 1
                                                                                                                               Page 5 of 9


                                                                                  Anticipated
                                                                                  Completion
                              Other      Type of        Deliverable               Date (Bold =
                              Modes      Deliverable/   According to the          Statutory
 Section Title      Lead      Involved   Action*        Department                Deadline)      Status According to the Department
 1311:              22-FHWA   FTA        Rulemaking     Rulemaking on             NPRM           In progress. This section will be incorporated
 Development of                                         integration of planning   11/20/13       into the rulemaking discussed in Section
 Programmatic                                           and environmental         FR None at     1310. This schedule may change as a result
 Mitigation Plans                                       review.                   this time      of further discussion within the Department.


 1312: State        23-FHWA   FTA        Guidance       Update guidance on        None at this   In progress. Under development by program
 Assumption of                                          state assumption of       time           offices.
 Responsibility                                         responsibility for
 for Categorical                                        categorical exclusions.
 Exclusions
 (CEs)
 1313: Surface      24-FHWA   FTA        Required       Rulemaking to update      NPRM           In progress; behind schedule. The
 Transportation                          Rulemaking     regulations.              5/24/13        Department is determining whether additional
 Project Delivery                                                                 FR 6/28/13     modes (e.g., FAA, MARAD, NHTSA) will
 Program                                                                                         participate in this rulemaking. Final rule
                                                                                                 deadline will not be met; they anticipate a final
                                                                                                 rule on 9/28/13.

                    25-FHWA   FTA        Guidance       Update guidance on        None at this   In progress.
                                                        state assumption of       time
                                                        responsibility for
                                                        categorical exclusions.

 1314:              26-OST    FTA,       Guidance       Q&A guidance              None at this   In progress. Q&A document(s) have been
 Application of               FHWA                      document(s) on the        time.          drafted and shared with modes for comment.
 CEs for                                                application of CEs for
 Multimodal                                             multimodal projects.
 Projects




CC-2013-007
                                                                                                                             Attachment 1
                                                                                                                               Page 6 of 9


                                                                                   Anticipated
                                                                                   Completion
                            Other      Type of        Deliverable                  Date (Bold =
                            Modes      Deliverable/   According to the             Statutory
 Section Title   Lead       Involved   Action*        Department                   Deadline)      Status According to the Department
 1315: CEs in    27- FHWA   FTA,       Required       Rulemaking to qualify        NPRM           Complete. NPRM was published on 10/1/12.
 Emergencies                OST        Rulemaking     'emergency repair'           10/30/12       Final rule was published in Federal Register,
                                                      projects as CEs.             FR 2/19/13     effective as of 2/19/13.

                 28- FHWA   OST        Required       Regulation on                NPRM           In progress. Agencies solicited comments on
                                       Rulemaking     evaluation of                11/20/13       regulatory approach in NPRM for Section
                                                      alternatives to facilities   FR None at     1315(a). FHWA and FTA will be issuing rules
                                                      repeatedly requiring         this time      separately. FHWA plans to implement the
                                                      repair or                                   requirement in its Asset Management
                                                      reconstruction.                             rulemaking, with an NPRM scheduled to
                                                                                                  publish 11/20/13.
                 29- FTA    OST        Required       Regulation on                IFR 4/1/13     In progress. FTA is implementing the
                                       Rulemaking     evaluation of                               requirement through rulemakings for new
                                                      alternatives to facilities                  Emergency Relief program (49 USC 5324).
                                                      repeatedly requiring                        They will issue an Interim Final Rule (IFR) in
                                                      repair or                                   place of a final rule.
                                                      reconstruction.

                 30- FTA    OST        Required       Regulation on                ANPRM          In progress. Will be incorporated into the new
                                       Rulemaking     evaluation of                6/20/13        Transit Asset Management program (49 USC
                                                      alternatives to facilities   FR 10/1/14     5326). Program office drafting ANPRM for
                                                      repeatedly requiring                        Transit Asset Management Program.
                                                      repair or
                                                      reconstruction.




CC-2013-007
                                                                                                                           Attachment 1
                                                                                                                             Page 7 of 9


                                                                                  Anticipated
                                                                                  Completion
                              Other      Type of        Deliverable               Date (Bold =
                              Modes      Deliverable/   According to the          Statutory
 Section Title     Lead       Involved   Action*        Department                Deadline)      Status According to the Department
 1316: CEs for     31- FHWA   FTA        Required       Promulgate                NPRM           In progress; behind schedule. Combined
 Projects Within                         Rulemaking     regulations defining as   2/28/13        rulemaking with Section 1317. NPRM
 the Right-of-                                          CE projects in            Implement      published on 2/28/13. No schedule for final
 Way                                                    operational right-of-     3/30/13        rulemaking.
                                                        way.
 1317: CE For      32- FHWA   FTA        Required       Promulgate                NPRM           In progress; behind schedule. Combined
 Projects of                             Rulemaking     regulations to            2/28/13        rulemaking with 1316. NPRM published on
 Limited Federal                                        designate projects of     Implement      2/28/13. No schedule for final rulemaking.
 Assistance                                             limited Federal           3/30/13
                                                        assistance as CEs
                                                        within 180 days of
                                                        enactment.
 1318:             33- FHWA   FTA,       Initiative:    Survey uses of CEs        11/30/12       Complete. Survey conducted and
 Programmatic                 OST        Survey &       by DOT since 2005,                       review/report posted on 12/7/2012. Federal
 Agreements and                          Solicitation   publish review of                        Register notice of availability of report
 Additional                                             survey, and solicit                      published 12/13/2012.
 Categorical                                            requests for new CEs.
 Exclusions        34- FHWA   FTA,       Required       Rulemaking to add         NPRM           In progress; behind schedule. The
                              OST        Rulemaking     new CEs suggested         1/29/13        Department now expects to publish the
                                                        by others and as listed   FR 10/1/14     NPRM in August 2013. Program offices
                                                        in statute.                              drafting rule.




CC-2013-007
                                                                                                                             Attachment 1
                                                                                                                               Page 8 of 9


                                                                                   Anticipated
                                                                                   Completion
                               Other      Type of        Deliverable               Date (Bold =
                               Modes      Deliverable/   According to the          Statutory
 Section Title      Lead       Involved   Action*        Department                Deadline)      Status According to the Department
 1319:              35- FHWA   FTA        Guidance       Interim guidance on       1/14/13        Complete. Internal interim guidance jointly
 Accelerated                                             accelerated                              issued by FHWA & FTA on 1/14/13.
 Decisionmaking                                          decisionmaking on
 in Environmental                                        environmental
 Reviews                                                 reviews.
                    36- FHWA   FTA        Potential      Regulation on             NPRM 6/14      In progress. This may be addressed as part of
                                          Rulemaking     accelerated               FR None at     the "clean-up" rulemaking as referenced in
                                                         decisionmaking on         this time      Section 1305 rulemaking effort.
                                                         environmental
                                                         reviews.

 1320:              37- FHWA   FTA        Guidance       Guidance on               None at this   In progress. No additional details provided by
 Memoranda of                                            memoranda of agency       time           the Department.
 Agency                                                  agreements for early
 Agreements for                                          coordination.
 Early
 Coordination       38- FHWA   FTA        Potential      Rulemaking on             NPRM           In progress. Potential to be combined with
                                          Rulemaking     memoranda of agency       11/20/13       rule for MAP-21 Sections 1310 and 1311.
                                                         agreements for early      FR None at     This schedule may change as a result of
                                                         coordination.             this time      further discussion within the Department.


 1321:              39- OST    FHWA,      Report         For formula grant         None at this   In progress. No additional details provided by
 Environmental                 FTA                       funds distributed, the    time           the Department.
 Procedures                                              Secretary shall
 Initiative                                              establish an initiative
                                                         to review and develop
                                                         consistent procedures
                                                         for environmental
                                                         permitting and report
                                                         results.




CC-2013-007
                                                                                                                                  Attachment 1
                                                                                                                                    Page 9 of 9


                                                                                        Anticipated
                                                                                        Completion
                                 Other       Type of         Deliverable                Date (Bold =
                                 Modes       Deliverable/    According to the           Statutory
 Section Title      Lead         Involved    Action*         Department                 Deadline)      Status According to the Department
 1323: Review of    40- FHWA                 Congressional   Report to Congress on      10/1/13        In progress. No additional details provided by
 Federal Project                             Report          results of review of                      the Department.
 and Program                                                 federal project and
 Delivery                                                    program delivery, pre-
                                                             2005 projects.
                    41- FHWA                 Congressional   Report to Congress on      10/1/17        In progress. No additional details provided by
                                             Report          results of review of                      the Department.
                                                             federal project and
                                                             program delivery,
                                                             post-2005 projects.
                    42- FHWA     FTA         Congressional   Report to Congress on      10/1/14        Not started. Awaiting rulemaking for Sections
                                             Report          types and justifications                  1316 and 1317.
                                                             for additional
                                                             categorical exclusions
                                                             under sections 1316-
                                                             1317.
Source: OIG compilation of information provided and confirmed by U.S. Department of Transportation agencies including OST, FHWA, and
FTA.
Key: NPRM = Notice of Proposed Rulemaking. ANPRM = Advanced Notice of Proposed Rulemaking. FR = Final Rule. IFR= Interim Final
Rule.
Note: Statutory deadlines are in bold; all other deadlines are the Department's estimated completion dates.
Note: There are 42 actions included in the Department’s current plans; however, some of the sections with anticipated rulemakings may eventually
be consolidated. For example, the Department plans to issue one rule to cover Sections 1316 and 1317.




CC-2013-007
                                                                                                       Attachment 2
                                                                                                         Page 1 of 2

OIG Review Scope and Methodology
We are congressionally mandated to assess the actions taken by the Department to carry
out MAP-21, Subtitle C. Based on that requirement, we conducted this initial audit to
proactively assess the Department’s plans and progress to date. Our objectives were to (1)
review the Department’s plans to carry out Subtitle C provision, (2) assess the status of
those planned actions, and (3) identify challenges that could delay the Department’s
implementation efforts. To address these objectives, we performed an initial audit from
December 2012 through May 2013 in accordance with generally accepted Government
auditing standards. This standard requires that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives.

To review the Department’s plans, we reviewed MAP-21 Subtitle C, Sections 1301
through 1323. We identified the actions that the Department needs to accomplish to
implement this subtitle. We also reviewed the prior surface transportation authorization
which is modified by new provisions specified in MAP-21. We obtained and reviewed
the Department’s Legislative Implementation Plans (plans) and related documents which
are developed and updated by each agency. Using these plans, we conferred with the
Department to develop a matrix which identifies each section and the corresponding
42 individual planned actions the Department will use to implement Subtitle C
provisions. We also compared the Department’s plans to the dates specified in Subtitle C
for each of the 42 individual actions.

To assess the status of the 42 planned actions, we verified the publication of notices of
proposed rulemaking and/or final rules included in the Federal Register. We also
reviewed MAP-21 guidance presented on the Department’s web sites. When reviewing
the status of the Department’s other planned actions which are in progress, we relied
upon the Department’s representations included in the plans. We also interviewed OST,
FHWA, and FTA attorneys, planners, and administrative officials responsible for
implementing these plans.

To identify challenges that could delay the Department’s efforts to implement MAP-21
Subtitle C, we interviewed industry stakeholders from the American Association of State
Highway Transportation Officials (AASHTO), including six member States, and the
American Public Transportation Association (APTA). Additionally, we conducted
analyses concerning the length of time the Department historically used to issue a final
rule. Accordingly, we reviewed a 2009 GAO report 16 which provided insights into
the Federal rulemaking process. We also reviewed three recent rules—two from FHWA



16
 This GAO report is titled “Federal Rulemaking: Improvements Needed to Monitoring and Evaluation of Rules Development as
Well as to the Transparency of OMB Regulatory Reviews.”


CC-2013-007
                                                                                                    Attachment 2
                                                                                                      Page 2 of 2

and one from FTA 17—initiated as a result of the prior surface transportation
authorization. We calculated the average number of days from initiation to the final rule
and from the NPRM publication to the final rule to provide illustrative examples.




17
  The FHWA rules we reviewed were the Indian Reservation Road Bridge Program and the Real-Time System Management
Information Program. The FTA rule we reviewed was the Major Capital Investment Projects.


CC-2013-007
